NO.
IN THE SUPREME COURT OF THE UNITED STATES

MARCUS HANSERD
Petitioner,
v
TONY TRIERWEILER.
Respondent.

CERTIFICATE OF SERVICE
I, Marcus Hanserd, certify that on August

, 2020, as required by Supreme Court Rule

29, I have served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS and
PETITION FOR A WRIT OF CERTIORARI on:
Michigan Attorney General
Attorney for the Respondent
G. Mennen Building, 7th Floor
525 West Ottawa/PO Box 30212
Lansing, Michigan 48909
by depositing an envelope containing the above documents in the United States Mail with firstclass postage prepaid.
I declare under penalty of peijury that the foregoing is true and correct. 28 U.S.C. ยง 1746.

Executed on: August "ZT), 2020
Marcus Hanserd, Petitioner
1727 West Bluewater Highway
Ionia, Michigan 48846

